<html>
<title> - FUTURE OF EMERGENCY ALERTING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]











                      FUTURE OF EMERGENCY ALERTING

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

                           Serial No. 115-31




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-386                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                       
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6

                               Witnesses

Sam Matheny, Chief Technology Officer, National Association of 
  Broadcasters...................................................     9
    Prepared statement...........................................    11
Farrokh Khatibi, Ph.D., Director of Engineering, Qualcomm 
  Technology.....................................................    20
    Prepared statement...........................................    22
Christopher Guttman-McCabe, CEO, CGM Advisors, Llc, On behalf of 
  Advanced Computer and Communications, LLC......................    31
    Prepared statement...........................................    33

                           Submitted Material

Statement of the American Cable Association......................    63

 
                      FUTURE OF EMERGENCY ALERTING

                              ----------                              


                        WEDNESDAY, MAY 17, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 2123, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Blackburn, Lance, Shimkus, Latta, 
Guthrie, Olson, Bilirakis, Johnson, Long, Flores, Brooks, 
Collins, Walters, Costello, Walden (ex officio), Doyle, Welch, 
Clarke, Eshoo, Butterfield, Matsui, McNerney, and Pallone (ex 
officio).
    Staff Present: Ray Baum, Staff Director; Chuck Flint, 
Policy Coordinator, Communications and Technology; Adam Fromm, 
Director of Outreach and Coalitions; Gene Fullano, Detailee, 
Communications and Technology; Giulia Giannangeli, Legislative 
Clerk, Digital, Commerce, and Consumer Protection/
Communications and Technology; Kelsey Guyselman, Counsel, 
Communications and Technology; A.T. Johnston, Senior Policy 
Advisor, Energy; Lauren McCarty, Counsel, Communications and 
Technology; Alex Miller, Video Production Aide and Press 
Assistant; Dan Schneider, Press Secretary; Hamlin Wade, Special 
Advisor, External Affairs; Everett Winnick, Director of 
Information Technology; Jeff Carroll, Minority Staff Director; 
Alex Debianchi, Minority Telecom Fellow; David Goldman, 
Minority Chief Counsel, Communications and Technology; Jerry 
Leverich, Minority Counsel; Lori Maarbjerg, Minority FCC 
Detailee; Dan Miller, Minority Policy Analyst; Matt Schumacher, 
Minority Deputy Press Secretary and Digital Director; and 
Andrew Souvall, Minority Director of Communications, Outreach 
and Member Services.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order. And I recognize myself for 5 
minutes for an opening statement.
    I do want to welcome each of you and say good morning 
because it is a good morning here in D.C., and welcome you to 
our hearing, the ``Future of Emergency Alerting,'' and to think 
about how important this topic is.
    One data point that we should each celebrate is that the 
first abducted child to be rescued by an AMBER Alert in 1998 is 
about to graduate from high school, and in that thought, we 
extend our congratulations to Miss Rae Leigh Bradbury of Fort 
Worth, Texas, who was that first child who was rescued by an 
AMBER Alert.
    I do want to thank our witnesses that are here today. This 
committee's commitment to advancing public safety 
communications is well established. Recently, FirstNet 
announced the award of a contract to AT&T that will bring 
state-of-the-art interoperable broadband communications to our 
Nation's first responders. The legislation that got us there 
reflects the bipartisan work of this committee under Chairman 
Walden's leadership, and we thank him for that leadership.
    The committee examined Next Gen 911 services and listened 
to testimony regarding the challenges and benefits of bringing 
the robust capabilities of IP-based technology to our Nation's 
public safety answering points.
    This morning, we have an opportunity to hear about a third 
critical component of public safety communications, which is 
emergency alerting. Outfitting first responders with the 
capabilities of broadband communications is essential. In those 
times when catastrophe looms in the lives of hundreds, 
thousands, or maybe even millions are at risk or a child is 
missing, the necessity of ensuring the best available tools are 
available to local, state, and federal authorities to alert the 
public cannot be understated.
    We all know the stories from tornadoes that are ripping 
through communities, hurricanes that devastate the coast, 
earthquakes, even acts of terrorism that weigh heavily on our 
collective consciousness of just how dangerous the world can 
be. Where do we find comfort? With the knowledge that those 
that have dedicated their lives to protecting ours are able to 
notify us and steer us from harm's way.
    How do they go about doing this? This morning, we will hear 
about the Emergency Alert System, EAS, a broadcast-based 
mechanism that has been around for decades and serves as the 
Nation's primary alerting tool.
    Recently, FEMA and its partners performed a nationwide 
test, the second in history. We will hear about the outcome and 
the lessons learned. We will be introduced to a new television 
broadcast transmission standard, ATSC 3.0, that the broadcast 
television industry has sought authorization from the FCC to 
deploy. Among other things, it appears to offer capabilities 
that could bring significant improvements to emergency 
alerting. I would like to understand what those are and the 
impact it will have on EAS.
    We will hear about wireless emergency alerts, the mechanism 
that brings us alerts through our mobile devices. Mr. Shimkus 
was the lead sponsor of the WARN Act, the legislation that 
established that mechanism in 2006, and we thank him for that 
leadership. Since then, we have come to increasingly rely on 
our smartphones.
    Today, we will hear how continued technological innovation 
promises to make WEA a more significant component of alerting.
    Finally, we are going to explore the role of social media. 
We have seen firsthand the power of Twitter and Facebook, as 
well as others in this space. Yet while social media has been 
used as a tool by public safety, there are concerns regarding 
such things as trustworthiness and security.
    Having the most effective means to reach our citizens in 
times of emergency is a goal we all share. Today's panel will 
inform us on what is and what might be as the Nation's alerting 
capabilities evolve.
    I now recognize the subcommittee ranking member, Mr. Doyle, 
for 5 minutes for an opening statement.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Good morning and welcome to the Communications and 
Technology Subcommittee's hearing titled: the ``Future of 
Emergency Alerting.'' How important a topic is this? The first 
abducted child to be rescued by an Amber Alert back in 1998 is 
about to graduate from high-school. Congratulations to Ms. Rae 
Leigh Bradbury of Fort Worth. And let me thank our witnesses 
for appearing here today to offer your expertise.
    This Committee's commitment to advancing public safety 
communications is well established. Recently, FirstNet 
announced the award of a contract to AT&T that will bring 
state-of-the-art interoperable broadband communications to our 
Nation's First Responders. The legislation that got us there 
reflects the bipartisan work of this Committee under Chairman 
Walden's leadership. The Committee examined Next Generation 911 
services and listened to testimony regarding the challenges and 
benefits of bringing the robust capabilities of IP-based 
technology to our nation's Public Safety Answering Points. This 
morning we have an opportunity to hear about a third critical 
component of public safety communications--emergency alerting.
    Outfitting first responders with the robust capabilities of 
broadband communications is essential. In those times when 
catastrophe looms and the lives of hundreds, thousands, even 
millions--are at risk or a child is missing, the necessity of 
ensuring the best available tools are available to local, state 
and federal authorities to alert the public cannot be 
understated.
    We all know stories--tornadoes ripping through the 
heartland, hurricanes devastating our coasts, earthquakes, even 
acts of terrorism weigh heavy on our collective consciousness 
of just how dangerous the world can be. Where do we find 
comfort--with the knowledge that those that have dedicated 
their lives to protecting ours are able to notify us and steer 
us from harm's way.
    How do they go about doing this?
    This morning we will hear about the emergency alert 
system--EAS--a broadcast based mechanism that has been around 
for decades and serves as the nation's primary alerting tool. 
Recently, FEMA and its partners performed a nationwide test--
the second in its history. We will hear about the outcome and 
lessons learned.
    We will be introduced to a new television broadcast 
transmission standard--ATSC 3.0 that the broadcast television 
industry has sought authorization from the FCC to deploy. Among 
other things, it appears to offer capabilities that could bring 
significant improvements to emergency alerting. I'd like to 
understand what they are and how they impact EAS.
    We will hear about Wireless Emergency Alerts--the mechanism 
that brings us alerts through our mobile devices. Mr. Shimkus 
was the lead sponsor of the WARN Act, the legislation that 
established that mechanism in 2006. Since then we have come to 
increasingly rely on our smart phones. Today we will hear how 
continued technological innovation promises to make WEA a more 
significant component of alerting.
    Finally, we will explore the role of social media. We have 
seen first-hand the power of Twitter and Facebook as well as 
others in this space. Yet, while social media has been used as 
a tool by public safety, there are concerns regarding such 
things as trustworthiness and security.
    Having the most effective means to reach our citizens in 
times of emergency is a goal we all share. Today's panel will 
inform us on what is and what might be, as the nation's 
alerting capabilities evolve. Thank you.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair, and I want to thank the 
witnesses for being here today. I believe emergency alerts are 
a critical issue for our country and our constituents, and I 
look forward to the hearing today.
    Advances in emergency alerts have enabled greater 
flexibility, targeting, and effectiveness, and I am proud of 
the legislation that was passed out of this committee and has 
been adopted by industry and consumers alike. Wireless alerts 
provide detailed and timely messages to the devices that we 
carry and keep close to us every moment of the day.
    Additionally, I am happy to see a representative from the 
broadcasters here. The commitment that broadcasters have had to 
emergency alerts and local reporting in times of emergency is 
commendable. For far too long this has been the only way that 
people have been able to get information about emergencies and 
events in their regions.
    I will be interested to hear about the impact the new 
proposed television standard could have on broadcast alerts. 
That being said, I still have concerns about this proposed 
transition to a new broadcast standard and the impact it could 
have on working families and seniors.
    The last time we changed broadcast standards, Congress, the 
FCC, and the Department of Commerce partnered with industry to 
inform people and ensure that citizens were not left behind by 
a change in technology. As we embark on this next transition, 
it is critical that we work together to do the same thing.
    That being said, I am concerned about the timing of this 
hearing. The FCC, at its open meeting tomorrow, will vote to 
advance an order that will roll back essential rules that 
protect and promote a free and open internet. There are already 
1.6 million comments on the record.
    This committee has yet to hold a public hearing at this 
Congress to address the proposed changes, nor has this 
committee held an oversight hearing of the FCC itself, one of 
the primary agencies this subcommittee is charged with 
overseeing. This issue is one of many that this subcommittee 
should be discussing with the Commission.
    Since the Commission is made up of unelected appointees, as 
the majority repeatedly pointed out over the last 8 years, it 
is critical that they be held accountable by Congress.
    Last Congress, this subcommittee had no trouble bringing 
the FCC up here to testify, with some commissioners joking that 
they should receive frequent flyer miles for the frequency of 
their visits. Now, with the Commission on the brink of 
considering an enormously unpopular and ill-advised proposal 
that could have far-reaching implications on the most 
innovative part of our economy, it seems irresponsible not for 
Congress to provide the much needed oversight.
    Ranking Member Pallone and I have recently sent a letter to 
the Commission requesting that they extend the comment period 
for open internet NPRM. I am concerned that denying citizens 
and stakeholders sufficient opportunity to comment on this 
proceeding will only prevent the Commission from seeing how 
deeply unpopular and ill-advised this course of action is.
    Additionally, along with my colleagues Anna Eshoo and Doris 
Matsui, we recently sent a letter requesting a hearing on the 
proposed Sinclair-Tribune merger. This merger, coupled with the 
FCC's recent action to reinstate the UHF discount, has the 
potential to enormously increase consolidation of media 
ownership in this country.
    It is my hope that the majority and Chairman Blackburn will 
work with us to schedule a hearing to address the issues 
surrounding this proposed merger.
    Madam Chair, I would like to ask unanimous consent that a 
letter from the American Cable Association be placed in the 
record.
    Mrs. Blackburn. So ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Doyle. Thank you.
    And with that, I will yield back my time.
    Mrs. Blackburn. The gentleman yields back.
    At this time, I recognize the chairman of the full 
committee, Mr. Walden, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the chairman for her leadership on 
these and other issues involving communications.
    I want to strike out a little personal privilege here to 
recognize and commend our long-time counsel on the 
subcommittee, Mr. David Redl. The announcement that the 
administration intends to appoint him to head up the NTIA, that 
announcement came out last night. He has been an incredibly 
valuable part of our efforts on communication law, and I think 
we owe him a round of applause for his new endeavor.
    And he is not here. Appropriately he is hiding out in the 
back, I think, but David has done a terrific job, so thank you, 
David.
    I think I can say without a doubt I am the only chairman of 
the Energy and Commerce Committee that has ever actually wired 
in an emergency alert system. Having been a radio station owner 
and operator and full engineer from time to time, I am very 
familiar with EAS and its predecessor, the EBS, and the 
importance of the work that has been done over the years to 
provide emergency communication to our citizens.
    I want to commend Mr. Shimkus, who has gone up to the other 
hearing, I believe, for his work in transitioning America's 
laws over into the wireless world as well, where we 
communicate. Well, actually, radio was the original wireless 
world.
    Today, we are going to look at all of this and look 
forward. As you know, our work, in a bipartisan way, Ms. Eshoo 
and I, moving forward on the spectrum auction that allowed the 
facilitation of the creation of FirstNet, which also funded it 
when the auction was successful.
    As we move forward, we want to make sure that our first 
responder community and the citizens that they serve and 
protect have access to the latest technologies and that that is 
an evolving course, not something that is just simply locked 
in.
    We have come a long way since the 1950s with EBS, and now 
we are into this new age. And we need to make sure that Federal 
policy doesn't inhibit technological advancement, and we need 
to make sure that we are providing the help that our first 
responders need and that broadcasters use and cablecasters and 
others when it comes to making sure that people are notified.
    So I look forward to your testimony today. I thank the 
chairman for her leadership on this subcommittee. And with 
that, I yield back the balance of my time.
    [The prepared statement of Chairman Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Today's hearing will examine the future of emergency 
alerting system and the mechanisms used to provide the public 
with life-saving information. Emergency alerting has come a 
long way since it was established in 1951, the Integrated 
Public Alert and Warning System now reaches people via 
broadcast, cable, satellite, and mobile devices. I look forward 
to our witnesses giving us a better picture of the successes 
and advances of this life-saving technology.
    Back in December the state of Oregon, specifically, my 
district was hit with a severe storm and flooding. Emergency 
alerting was there to notify Oregonians who were in the path of 
the storm. As a result, my constitutes were given time to 
prepare and remove themselves from potential danger. Providing 
emergency alert and warning information to the public before, 
during, and after incidents and disasters is a key component to 
our emergency system.
    Every one of us has had a natural disaster, extreme 
weather, or AMBER alter occur within our district, countless 
lives have been saved due to emergency alerting. Alerts are a 
critical part of our emergency infrastructure and they have 
changed significantly changed over the last 20 years. Today, 
there are different delivery mechanisms being implemented 
simultaneously which create the tools that are essential to 
saving lives.
    We are committed to seeing the alerting systems be both 
more effective and responsive to all communities, particularly 
those that have been historically underserved. As the world 
changes and becomes more interconnected our emergency altering 
delivery mechanisms must continue to grow and work together.
    As technology continues to advance, authorities can deliver 
alerts simultaneously through multiple communications devices 
reaching as many people as possible to save lives and protect 
property. It is important to advance current and future 
emergency altering as we move forward in a rapidly changing 
world. I look forward to hearing your testimony and how to 
foster innovation of this important technology. Thank you for 
being here this morning.

    Mrs. Blackburn. The gentleman yields back.
    Would anyone like the balance of Mr. Walden's time?
    No one seeking that time, I recognize Mr. Pallone for 5 
minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair. And I also want to 
thank you and our ranking member, Mr. Doyle, for having this 
important hearing today.
    But before I turn to the matter of the hearing, I wanted to 
quickly address FCC's efforts to strip away consumers net 
neutrality protections at tomorrow's FCC meeting. FCC Chairman 
Pai has proposed a plan that would kill net neutrality, and the 
chairman's proposal will have a chilling influence on our 
democracy, cut away at our connections with each other, and 
limit economic opportunities for the future.
    It is no wonder that more than 1 million comments have 
already been submitted, and I would urge the Commission to 
listen to the American people and reconsider this misguided 
approach.
    Getting back to today's hearing, President Truman created 
our Nation's first emergency alert system in 1951, in part, to 
ensure Americans will be prepared in the event of a nuclear 
strike. It is hard to overstate the importance of emergency 
alerts, whether it is preparing us for the impending landfall 
of a devastating hurricane, telling us to seek shelter from a 
tornado, or letting us know there is an active shooter nearby, 
getting up-to-the-minute information saves lives. And the need 
for alerts, unfortunately, is now greater as we face the 
sobering realities of climate change and as mass shootings 
appear more frequently than ever.
    The people in my district know this too well. The emergency 
alerts that were sent out ahead of Superstorm Sandy was one 
important way officials helped people along the New Jersey 
shore evacuate and prepare. Going above and beyond just passing 
along alerts, one radio station called the RAT stayed on the 
air during the storm to help reunite families and get people to 
safety.
    Alerts also helped to get the word out last year when a 
bomb was detonated in Seaside Park, New Jersey, and several 
more bombs were found at a train station in Elizabeth. 
Authorities in New York and New Jersey used mobile alerts to 
enlist the public's help to find the suspect.
    Now with the advent of new technologies, Americans deserve 
better, more detailed information to help keep them safe 
wherever they are when disaster strikes.
    But new technologies won't save lives if they aren't useful 
and available to everyone. We need to ensure existing systems 
are free from interference, and we must test and evaluate these 
systems to make sure that they get the job done. Unfortunately, 
that is not something we have always been good at.
    As I mentioned, the first nationwide alerting system was 
created in 1951, but we didn't test the nationwide system until 
2011, 60 years later. The results of that test were abysmal, 
and entire states didn't even receive the test alerts.
    Today, we are here to learn about the status and future of 
public safety and what is being done in the name of saving more 
American lives. When it comes to public safety, we always must 
ask ourselves how many lives we are saving, not how many 
products companies are selling.
    And with that, I would like to yield the rest of my time to 
Ms. Matsui.
    Ms. Matsui. Thank you very much, Ranking Member Pallone, 
for yielding me time.
    Public safety is our first and foremost responsibility to 
the American public. As technology advances, we should use 
these innovations to improve emergency communications to our 
constituents.
    I am glad that the subcommittee is focusing on these 
important issues, but I also believe there are many other 
pressing issues that deserve our subcommittee's immediate 
attention. Tomorrow, the FCC is set to vote to begin the 
process of rolling back the net neutrality rules, which is a 
real threat to the free and open internet.
    Yesterday, I join my colleagues, Representative Doyle and 
Eshoo, to ask for a hearing on the proposed Sinclair-Tribune 
merger, which could have damaging consequences for local 
newsrooms. It is our responsibility to conduct oversight of 
these major regulatory decisions and changes in the 
marketplace. I urge my Republican colleagues to work with us to 
do so.
    And I yield more time here.
    Mr. Pallone. Yes, I will yield the minute that is left to 
Mr. McNerney.
    Mr. McNerney. Thank you.
    I also want to express my deep concerns about the FCC/
Chairman Pai's proposal to undo the net neutrality rules. 
Strong net neutrality rules are vital to the more than 31,000 
small businesses in my district. Abandoning these rules will 
make it much harder for a small business owner to get his or 
her business off the ground and successfully compete in the 
marketplace.
    Additionally, I am concerned about the short public comment 
periods. It is critical that this period be extended so that 
all parties, including small businesses, have sufficient time 
to participate in the process and express their views.
    It is my opinion that reducing the net neutrality rules 
will continue to harm the economy, so we need to make sure that 
those rules are enforced, that they are in place, and that 
small businesses have a chance to take an opportunity of the 
vital internet services that really have created so much 
economy in our country in the last decade or two.
    Thank you. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    This concludes member opening statements. And I will remind 
everyone that pursuant to the committee rules, all members' 
opening statements will be made a part of the record.
    We want to thank our witnesses for being here today and for 
submitting your testimony in a timely manner. That allows us to 
prepare, and we will look forward to hearing from you with your 
opening statements and then following with our questions.
    Our witness panel for today's hearing includes Mr. Sam 
Matheny, who is the Chief Technology Officer for National 
Association of Broadcasters; Dr. Farrokh Khatibi, who is the 
Director of Engineering at Qualcomm Technology; and Mr. 
Christopher Guttman-McCabe, who is the Chief Executive Officer 
for CGM Advisors. Chris is testifying on behalf of the Advanced 
Computer and Communications Company.
    We appreciate that you are all here. And we will begin with 
you, Mr. Matheny, for 5 minutes for your testimony.

 STATEMENTS OF SAM MATHENY, CHIEF TECHNOLOGY OFFICER, NATIONAL 
 ASSOCIATION OF BROADCASTERS; FARROKH KHATIBI, PH.D., DIRECTOR 
 OF ENGINEERING, QUALCOMM TECHNOLOGY; AND CHRISTOPHER GUTTMAN-
MCCABE, CEO, CGM ADVISORS, LLC, ON BEHALF OF ADVANCED COMPUTER 
                    AND COMMUNICATIONS, LLC

                    STATEMENT OF SAM MATHENY

    Mr. Matheny. Good morning. And thank you, Chairman 
Blackburn and Ranking Member Doyle, for inviting me here, as 
well as all of the members of the subcommittee. My name is Sam 
Matheny, and I am the chief technology officer at the National 
Association of Broadcasters. I appreciate this opportunity to 
testify today on the unique and important role that local 
broadcasters play as first informers during times of emergency 
and how the innovations of Next Gen TV will enhance that 
ability.
    I bring an on-the-ground perspective to this issue from my 
nearly 20 years of experience with Capitol Broadcasting 
Company, parent to WRAL-TV in Raleigh, North Carolina. Like 
WRAL, all NAB members, the thousands of free local radio and 
television broadcasters in your hometowns take seriously their 
role as the most trusted source of news and emergency updates.
    Whether it is preparing listeners and viewers for the 
coming storm, directing them to needed supplies and shelter 
during the disaster, or helping towns and cities rebuild in the 
aftermath, local stations are part of the communities they 
serve. And local radio and TV stations are sometimes the only 
available communication mediums in an emergency when cell 
phones and wireless networks fail. In fact, a new poll was 
released today by Morning Consult reaffirming that broadcasters 
are the number one medium that the American people turn to in 
times of emergency by a factor of nearly 4 to 1.
    This unique combination of trust and reliability is why, in 
addition to our ongoing comprehensive news coverage of 
emergencies, broadcasters form the backbone of the Emergency 
Alert System, EAS. EAS connects over-the-air broadcast radio, 
television, and cable systems to communicate critical safety 
information to the public during sudden, unpredictable, or 
unforeseen events.
    These capabilities can be enhanced by a station's voluntary 
upgrade to Next Gen TV, which will enable significant 
lifesaving advances in emergency communications. One need look 
no further than the recent tragic fire in Gatlinburg, 
Tennessee, or the destruction caused by Hurricane Sandy to 
appreciate the vital role of a reliable communications 
infrastructure in a time of crisis.
    I would now like to share some of the capabilities of Next 
Gen TV through a video demonstration. If we could play the 
video, please.
    So what you are going to see here when the video begins 
playing is you are watching a basketball game, and an emergency 
alert, an advanced emergency alert is going to appear. And 
rather than seeing the normal text that you would see 
scrolling, what you have here is an ammonia gas leak and a 
HAZMAT alert. But you also see a menu of items that are 
available under that alert notice. And so the user has access 
to a lot more information.
    In this case, we are actually presenting a map of the area 
that is impacted by the ammonia gas leak so you can visually 
see what is there, as well as a list of the neighborhoods in 
that community that are impacted.
    From that, you can also see that just to the right, a video 
on-demand file started playing. So instead of the basketball 
game, you are now watching a piece of content that was 
downloaded in the background that is specific to the emergency 
that is taking place where you can get really detailed 
information.
    As we go to shelter-in-place, which is what the 
recommendation for is in this emergency, you see what it means 
to shelter-in-place, specific instructions on what you should 
do in terms of staying inside, in terms of turning off your 
ventilation systems and protecting yourself.
    But if you do feel impacted, you might need first aid, and 
this is what it tells you what you need to do. In this case, 
the advice is to seek immediate medical attention, so therefore 
you also have hospital information as well as wait times. So 
all of this is being included in this single advanced emergency 
alert, as well as the additional information you see here on 
numbers where you can call to get assistance.
    Now, had this been an AMBER Alert, you might see the 
picture of the missing child, you might see a picture of the 
suspect, or a map of where they were last seen. So there is a 
great deal of information that can be presented in an advanced 
emergency alert using Next Gen TV.
    The next step in making these improvements a reality is FCC 
approval of the petition that NAB jointly filed with America's 
Public Television Stations, the Consumer Technology 
Association, and the Advanced Warning and Response Network 
Alliance.
    Before I conclude, I want to mention one important item 
within the oversight jurisdiction of this subcommittee: the 
recently completed broadcast incentive auction. The FCC has 
begun the process of relocating or repacking the nearly 1,000 
broadcast television stations. Put simply, the $1.75 billion 
repack budget and 39-month timeline are likely insufficient for 
such a massive endeavor, and congressional action is needed.
    Thank you again for inviting me here today. I look forward 
to answering any questions.
    [The prepared statement of Mr. Matheny follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Mrs. Blackburn. The gentleman yields back.
    Dr. Khatibi, you are recognized for 5 minutes.

              STATEMENT OF FARROKH KHATIBI, PH.D.

    Mr. Khatibi. Chairman Blackburn and Ranking Member Doyle, 
thank you for affording Qualcomm the opportunity to participate 
in today's hearing.
    Qualcomm is a licensor of highly innovative wireless 
technology and manufacturer of cutting edge chips of wireless 
devices.
    My name is Farrokh Khatibi, director of engineering at 
Qualcomm. I have been actively involved in the development of 
Wireless Emergency Alert, WEA, standards since early 2007.
    Recently, I was the co-lead of CSRIC V Working Group 2 on 
emergency alerting platforms where we completed three reports 
on WEA security, social media and complementary alerting 
methods, and wireless emergency alert and geo-targeting.
    By the way of background, WEA grew out of the Warning, 
Alert and Response Network, WARN Act, which became law as Title 
VI of the SAFE Ports Act in 2006.
    Taking advantage of the ubiquity of the mobile platform, 
Congress put in place a framework for wireless carriers to 
provide a voluntary public safety alerting system utilizing 
current wireless network technology. That system allows 
individuals to receive geo-targeted text-like messages alerting 
them of imminent threat to safety in their area. The alerts can 
be originated from local, state, or Federal agencies.
    The WEA system represents a successful partnership of 
public and private entities. Since its launch in 2012, WEA has 
benefited American wireless subscribers in a number of 
instances in which WEA has alerted citizens in the path of 
impending natural disasters, assisted in the rescue of abducted 
children, and issued shelter-in-place information during public 
safety incidents.
    Currently, there are three types of alerts sent through the 
system: alerts issued by the President of the United States; 
alerts involving imminent threat to safety of life issued in 
two different categories, extreme threats and severe threat; 
and of course, AMBER Alerts.
    With your permission, I would like to highlight two 
important aspects of WEA. First, emergency alerts are broadcast 
only to the cell towers in the coverage area that best match 
the zone of an emergency. All WEA-capable phones that are in 
that coverage area of the cell site in the zone will receive 
WEA.
    The second important aspect of WEA is that it uses cellular 
technology and the wireless provider network to broadcast from 
cell towers to mobile devices in the area. Broadcasting the 
alert ensures an efficient and timely distribution of the alert 
compared to sending the alerts point to point, such as SMS.
    The wireless industry has worked for years to evolve the 
service to add new and greater capabilities. For example, after 
careful coordination with alert originators and our Federal 
partners, the wireless industry is taking steps to offer 
capabilities that will include extending the alert message 
length from 90 to 360 characters for 4G LTE; improving geo-
targeting; including embedded references, such as URLs and 
phone numbers, in WEA messages; add a new alert category for 
public safety information messages; add Spanish language 
alerts; providing state/local alert originators the ability to 
conduct individual tests of the WEA system in their 
jurisdiction.
    The wireless industry is committed to enhancing WEA. To 
that end, the industry has taken the lead to study potential 
future enhancements to WEA, such as enhancement to end-to-end 
security, event codes, and device-assisted geo-targeting.
    Chairman Blackburn and Ranking Member Doyle, thank you 
again for the opportunity to participate in today's hearing. 
Qualcomm looks forward to working with the wireless industry, 
the FCC, the subcommittee, FEMA, and others in the public 
safety community to ensure that WEA continues to offer a unique 
and useful way to help protect the American public. Thank you.
    [The prepared statement of Mr. Khatibi follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. We thank you.
    Mr. Guttman-McCabe, you are recognized for 5 minutes.

            STATEMENT OF CHRISTOPHER GUTTMAN-MCCABE

    Mr. Guttman-McCabe. Thank you. And good morning, Chairman 
Blackburn, Ranking Member Doyle, and members of the 
subcommittee. It is a privilege and honor to appear before you 
today to discuss the future of emergency alerts.
    During my testimony, I will wear two hats. Most 
importantly, I will represent AC&C, a small business technology 
company based in Baton Rouge, founded in 1991, that has 
developed a transformational software upgrade that I believe 
will drive the next iteration of wireless emergency alerting.
    In addition to representing AC&C, I also appear before you 
as an early advocate of the wireless emergency alert service. 
This issue is close to my heart. Today's hearing marks the 
seventh time that I will appear before Congress to discuss, at 
least in part, the issue of wireless emergency alerts.
    I first tackled this issue working on the WARN Act with 
Representative Shimkus and his team--thank you, sir--and I was 
part of the original committee that developed the framework for 
the WEA service. The emergency alerting platform has evolved in 
the years since the adoption of the WARN Act. It will evolve 
further with the recent actions of the FCC and with the 
industry's commitments in the recent CSRIC V.
    Still more will be done after Chairman Pai's leadership 
when the FCC finalizes its further notice of proposed 
rulemaking that focuses on the upgrades involving device-
assisted geo-targeting. When implemented, that upgrade will 
dramatically transform the service.
    I am not alone in this thinking. Public safety 
representatives from across the country have identified the 
need to be able to more accurately geo-target alerts as the 
single most important upgrade that could happen to the WEA 
service.
    The Big City Emergency Managers organization, which 
represents the 15 largest cities in the country, said it 
succinctly: Simply put, device-based geo-targeting provides the 
lightest lift with the biggest return.
    AC&C, the company I represent, has designed and developed a 
device-based geo-targeting solution entitled PG Alert. It 
leverages the current cell broadcast technology to push 
information to the general alert area, and the device takes 
over using its location awareness to decide who the alert is 
relevant for and how the alert is displayed on the device. The 
device can then compare its physical location to the alert area 
coordinates and play the message only when the person is within 
the alert area.
    For consumers, the upgrade will confirm why the person is 
receiving the alert by showing the device's position within the 
alert area on a well-defined map. For public safety alert 
originators, the most significant benefit will be the ability 
to contain alert messages to their jurisdiction regardless of 
size. This will make the system effective for alerts of any 
size--buildings, streets, college campuses, and more--and will 
remove the over-alerting problem.
    For wireless carriers, AC&C's product is a low-cost 
software upgrade to WEA that not only will address most of 
public safety's calls for improvements to the service, but also 
will enable the industry to take advantage of the cell 
broadcast technology that exists in their networks.
    Additionally, the ability to precisely geo-target alerts 
will limit the network impact of the WEA service, particularly 
as carriers begin to include URLs and other embedded 
information in the WEA message.
    We at AC&C are not alone in thinking that this device-
enhanced upgrade makes sense. In September, then Commissioner, 
now Chairman Pai, stated that citizens and public safety 
officials alike are opting out of the wireless system 
altogether.
    According to Chairman Pai, the city of Seattle says that it 
doesn't use WEA because of over alerting. The city of Houston 
says that it has shied away from using WEA because of the high 
likelihood of over alerting. Harris County, Texas, reports that 
it chose not to use WEA during four recent disasters solely due 
to significant concerns over the granularity of alerts.
    Chairman Pai said we need to do more than just codify the 
status quo, and he drove the FCC in the September order to move 
ahead with a device-based approach to geo-targeting, and in the 
attached FNPRM to, quote, additional comment on ways we can 
implement our commitment to device-assisted geo-targeting.
    In December, AT&T added support to the idea of device-
assisted geo-targeting, suggesting that a managed WEA 
application on the device could be the solution as it could 
take the WEA message and then, quote, determine the handset's 
location using existing capabilities and APIs already available 
in the mobile device. Once the managed WEA app has identified 
the handset's location, it can determine whether the handset is 
in the alert area and display the message. The handset is not 
in the area, it can ignore the message.
    In conclusion, we believe that the future of wireless 
emergency alerting is in the device, and that future is bright. 
We understand that the industry is working on a device-enhanced 
upgrade to the WEA service, and we look forward to continuing 
to work with the industry and the FCC to integrate the 
intelligence of the mobile device into the WEA service.
    It is our belief that these device-enhanced capabilities 
will provide significant consumer, public safety, and wireless 
industry benefits, and help future-proof the WEA service.
    I again thank you for the invitation to provide my thoughts 
on the future of emergency alerts, and I welcome any questions 
that you might have. Thank you.
    [The prepared statement of Mr. Guttman-McCabe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
       Mrs. Blackburn. Thank you all for your testimony. And now 
we are ready for the test portion of this hearing, right? We 
get to ask the questions and you all get to give us the 
answers.
    Dr. Khatibi, I am coming to you first. Mr. Matheny pointed 
out the Gatlinburg fires and talked about that as one of his 
examples of the WEA alerts and some being impeded by network 
congestion. That is understandable. A catastrophe happens, 
everybody wants as much information as they can get, people are 
trying to find family, networks get clogged, and so you have 
got a strain on the network.
    I want you to just discuss this, the situation, the 
process, and then the upgrades that you see as necessary for 
continuity and for information flow during those times.
    Mr. Khatibi. Thank you, Chairman Blackburn. So as I 
mentioned in my testimony, we are working on evolving the WEA 
technology as it is today, so we are adding more capabilities 
to it. For example, we are going from 90 to 360 characters, 
potentially allowing URLs and phone numbers so that people can 
get more information on it. And so the industry is in a 
continued mode of evolving the technology to serve public 
safety.
    But in addition to that, I would like to point out that the 
way I look at public safety is a big puzzle, and we are being 
part of it. So ATSC 3.0, other services would all complete that 
picture. So from the perspective of having public safety, I 
think is all these pieces combined together which form the 
public safety tools that we need to provide to our customers.
    So we are evolving WEA as well as enabling other 
technologies to it and improve, in addition to what we are 
doing.
    And as I said, for example, addition of 360 characters, the 
public safety community has come to us and say that is very 
important to them and that would allow them to provide a lot 
more information to the public.
    Mrs. Blackburn. OK.
    Mr. Khatibi. Thank you.
    Mrs. Blackburn. Thank you.
    Mr. Matheny, back in 2011, Gordon Smith told this 
subcommittee that the NAB--he was speaking on behalf of the 
NAB--did not seek any sort of mandate for mobile devices to 
incorporate a DTV. And as the industry transitions to the ATSC 
3.0, is it still the case that you prefer market forces as 
opposed to mandates to look at how we holistically address 
this? And so go ahead with that.
    Mr. Matheny. Yes, absolutely, Chairman Blackburn, that is 
the case. We are not looking for a mandate of any sort. We 
believe that the benefits of Next Gen TV will be attractive 
enough for themselves, and that is why, if you look at the 
petition that we filed in concert with CTA and APTS, as well as 
AWARN Alliance, it is a voluntary move, and so we are not 
seeking a mandate.
    Mrs. Blackburn. OK. I want to have each of you answer 
something. We have talked a lot about the potential in 
emergency alerting, and what we have not talked about is how to 
educate consumers. And I want to bring this up because, as we 
are looking at broadband expansion, one of the things we hear 
about is adoption rates and the necessity to educate consumers 
on the need for these adoption rates.
    But as we look at the different abilities and capabilities 
in the formats for getting the word out in times of tragedy and 
catastrophe, I think that education for the consumers is going 
to be an important part of this. So very quickly, since we have 
only got a half minute left, just go right down the line, what 
are you all doing to educate people on alert systems and how to 
use them?
    Mr. Matheny. So I think local broadcasters are part of the 
communities that they serve, and through our free and local 
newscasts, we are in constant communication in educating folks 
about the possibilities.
    Mrs. Blackburn. OK.
    Mr. Khatibi. That is an excellent question, and we are 
working very closely with FEMA and DHS to make sure that the 
consumer understands WEA and understand what to do as a result 
of that, so that is very important to us. Thank you.
    Mrs. Blackburn. OK.
    Mr. Guttman-McCabe. And, Chairman, I would agree with both 
of my colleagues' statements. I would also add that it is very 
important for us to actually educate public safety alert 
originators.
    What we found on the WEA side is that less than 60 out of 
tens of thousands of potential alert originators have used the 
service in the last 7 years. So I think, primarily, we need to 
do some educating on the public safety side so in instances 
like Gatlinburg or the Orlando shootings or the floodings in 
Louisiana, that the local public safety entities actually use 
the service.
    Mrs. Blackburn. Did you say 60?
    Mr. Guttman-McCabe. Sixty out of tens of thousands. Perhaps 
as many as 40,000 entities in the United States could sign up 
to use WEA and only--actually, I think the number is 52, so I 
am trying to be conservative and say 60, but I think only 52 
have actually ever used it in 6 years.
    Mrs. Blackburn. If you will, check those numbers and then 
get that back to us.
    Mr. Guttman-McCabe. Certainly, Chairman.
    Mrs. Blackburn. My time has concluded.
    Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you, Madam Chair.
    Dr. Khatibi and Mr. Guttman-McCabe, in both of your 
testimonies, you discussed the new advanced wireless alerting 
features that the FCC voted to allow last year; for instance, 
longer messages, geo-targeting, public safety alerts, and 
Spanish language alerts. What is the timeline for these 
features coming online and how is the rollout going?
    Mr. Khatibi. Ranking Member Mr. Doyle, Congressman Doyle, 
so we are working very closely with FCC. As a matter of fact, 
we had a call with FCC just a couple of weeks ago, and we have 
been scheduling weekly, sometimes twice a week meetings just to 
make sure they comply with the timeline that FCC had put forth 
to us.
    So we are very motivated, and we are trying to get the 
standards, which is the document that describe the technology, 
finished soon, within the next 6 to 9 months. And that has 
required a lot of resources, and industry has put a lot of 
resources because we believe this is very critical.
    Mr. Doyle. Yes, sir.
    Mr. Guttman-McCabe. And Ranking Member, some of it is 
happening sequentially. So some of the capabilities will be 
unlocked when the industry goes to 360 characters, and so I 
think that is sort of the lynchpin for some of the upgrades, 
not only that were in the order in September, but that are 
under consideration in the further notice that was released at 
the same time.
    Mr. Doyle. And tell me, as part of the FCC's further notice 
on this rulemaking, the Commission considered the addition of 
multimedia content, true multilingual support, including sign 
language. What are your thoughts on these proposed next steps?
    Mr. Khatibi. And thank you. I may take that first?
    Mr. Guttman-McCabe. Certainly.
    Mr. Khatibi. I thought you may want me.
    So at this point, to support multimedia, we allow enabled 
URLs, which is basically a pointer to Web site, and that could 
potentially take you to a place where you can get additional 
multimedia resources available to you.
    And with respect to other languages, we are also working on 
Spanish language alerts to be available to areas where they 
have large Spanish language population.
    Mr. Doyle. Thank you.
    Mr. Guttman-McCabe. And Ranking Member, the one thing that 
I would highlight from the FNPRM and one of the main focuses 
was on geo-targeting, the ability to target alerts to very 
precise areas. That, to me, public safety has been relentless 
in its pursuit of geo-targeting throughout the record, and so 
that perhaps is the most important in the FNPRM.
    Mr. Doyle. And this is for all the witnesses. One issue I 
have been very passionate about over the years is working and 
supporting the autism community. Currently, a number of states 
support Silver Alerts for the elderly, those with dementia, and 
autistic individuals. And while these alerts are supported by 
the Emergency Alert System in several states, they are not 
supported by wireless alerts.
    I just want to ask the panel their thoughts on expanding 
the alerting system to include these alerts.
    I think we are all keenly aware of alerting fatigue, but 
when you have a friend or a family member or a loved one who is 
missing and could be a danger to themselves or to others, it 
seems critical that we use the tools available to us to address 
this issue. So I am just curious about the panel's thoughts on 
this issue, Silver Alerts.
    Mr. Matheny. So I can speak to my time at WRAL-TV, and I 
know that we published a number of Silver Alerts, either 
through actually publishing via EAS or addressing them in our 
own air news coverage, and so we think that is part of the 
service to the community.
    Mr. Khatibi. Thank you. And from the WEA perspective, we 
would like to consider that as something that we need to work 
going forward. We haven't done anything on it yet. We just 
recently added a number of new alerts, but we haven't done the 
Silver Alert. But with your permission, we would like to 
discuss that and see what we can do.
    Mr. Doyle. Great. I would appreciate that.
    Mr. Guttman-McCabe. Certainly. And it was not a type of 
alert that was established when the committee originally put 
together the framework for the three types of alerts.
    Mr. Doyle. Mr. Khatibi and Mr. Guttman-McCabe, wireless 
alerting has operated as an opt-in model for both carriers and 
consumers. What can you tell us about the effectiveness of this 
model and how have carriers done in implementing this model and 
how have consumers reacted? Is there sufficient consumer 
education for them so that they know this is an option that 
they can enable? And based on the numbers you were talking 
about, it doesn't seem like many people are enabling these 
features. So how do we get more information out?
    Mr. Guttman-McCabe. Certainly, Ranking Member. On the 
carrier side, it is a voluntary service. I believe strongly in 
that approach to these types of requirements, strongly enough 
that I wrote a law review article well after I left law school. 
Partway through the process, I wanted to shoot myself for 
having committed to that.
    But I believe strongly that you get the best and the 
brightest in the evolution of the system if you engage in 
industry, like the wireless industry and others, in a voluntary 
manner. So the carriers have done their part. They have jumped 
on board, and it is well disseminated. The carriers have done 
their part.
    On the consumer side, it is not. It is actually the 
opposite; it is opt out. So the system is designed that you 
will get the alerts, and you can opt out of two of the three. 
You cannot opt out of the Presidential alert, but you can opt 
out of the AMBER Alerts or the imminent threat. Oftentimes, we 
are quiet about that as an industry, as a society, because we 
don't want people to actually opt out of the service.
    So it is in the phones the ability to opt out. We hope and 
pray that most people do not, because as much as it may bother 
you to be awakened at 2:00 in the morning, it is important, if 
it is an AMBER Alert, to the parents and to society that we 
find that child. Some people complain, but we hope people don't 
opt out. The education, I believe, again, needs to be on the 
public safety side of the equation.
    Mr. Doyle. Thank you so much.
    Mrs. Blackburn. The gentleman's time is expired.
    Chairman Walden for 5 minutes.
    Mr. Walden. Thank you. Again, thank you all for your 
testimony and for helping us out in these matters.
    Mr. Guttman-McCabe, given the difference in technical 
platforms, the inclination is discussed alerting in terms of 
technology silos like EAS or WEA. What are we missing when we 
approach emergency alerting in this manner?
    Mr. Guttman-McCabe. I think it was either Mr. Matheny or 
Dr. Khatibi that said it earlier. I think we need a patchwork 
quilt of approaches, to be quite honest. I think many of us in 
this room probably have children. I have two teenage daughters. 
They spend a great deal of time on social media, troubles the 
heck out of me, but they do.
    I think that they will get a fair amount of their 
information from social media, but I think that there needs to 
be a primary alerting mechanism like EAS, like WEA. And I don't 
think we are missing anything at the moment. I do think we need 
to continue to evolve these services, and that is happening.
    Mr. Walden. OK. Obviously, you are well informed on all 
these matters. The FCC has proposed a list of upgrades to WEA, 
including multimedia alerting and multilingual alerting. 
Obviously, these sound like good additions, but are there other 
considerations that we should have that should be included in 
WEA alerts?
    Mr. Guttman-McCabe. Certainly. And I know the industry is 
considering it. But currently, the way WEA is structured, is it 
treats the device, in essence, as a dumb terminal. So if an 
alert is broadcast using the cell broadcast system, if a device 
is in the area, place it. It doesn't do anything to it. It 
doesn't interpret it. It doesn't decide if I should get it or 
shouldn't get it. It doesn't add any rich content to it. It 
doesn't push you to a broadband connection. All of that is 
under consideration.
    And I think once we unlock the intelligence in the device, 
we will get an evolution of this service along the lines that 
Mr. Matheny is talking about with regard to ATSC 3.0. And so I 
do think we are going to see an evolution in the next several 
years as the intelligence in the handset comes in and we are 
able to take advantage of people's choices on their device, 
like Spanish as the primary language, like text-to-speech if 
you have a disability, or larger font, things like that.
    Mr. Walden. Well, Mr. Matheny, you mention in your 
testimony the ability of Next Gen TVs to be awakened, woken up, 
to alert users even when they are powered off. I think the idea 
of devices in our homes that can be turned on remotely is 
probably a new one to a lot of consumers. Can you explain 
further how this functionality works?
    Mr. Matheny. Sure. So thank you, Chairman Walden, for that 
question. I think that what you can think of is that your 
television will be turned off and it will actually be in sort 
of a sleep mode, and at the same time, it can still listen for 
a discreet, I am going to call it a beacon signal, that will 
then trigger it to turn on. And that is something that is new 
to Next Gen TV, and it is something that was very deliberately 
built in.
    And so what we think is that, truly, in a time of disaster 
emergency, that ability to wake up a device and to provide 
that, more info, and the types of targeted information that 
really makes it actionable, is vital and important and will 
save lives.
    Mr. Walden. Thinking back to my radio days, we had 
receivers that had a little device on them, a triggering switch 
so when they got the multitone actuator, it triggered a relay 
and turned on the audio. I guess that is all you are talking 
about here.
    Mr. Matheny. Yes. We are talking about in a very specific 
situation of activating and turning on the device to present 
emergency alerts.
    Mr. Walden. Are TVs able to be turned on for other 
purposes?
    Mr. Matheny. No.
    Mr. Walden. OK. We hear these things about cameras on 
televisions and all that. Can you speak to any of that, since 
we are on this topic, in general terms?
    Mr. Matheny. All I can speak to really is the capabilities 
of Next Generation television. The idea of having an internet 
connected or smart TV with other capabilities, that would fall 
outside of the realm of Next Gen TV, and those aren't really 
items that I should speak to here.
    Mr. Walden. Got it. OK.
    I think that is all I have, Madam Chair, so I will turn it 
back to you.
    Mrs. Blackburn. The gentleman yields.
    All right. Mr. Pallone, you are recognized for 5 minutes.
    Mr. Pallone. Thank you, Madam Chairwoman.
    Nearly 5 years ago, Hurricane Sandy ripped through the 
northeast, devastating so many people across the region. Radio 
and TV broadcasting played a crucial role in saving lives by 
letting people know how to stay out of harm's way, and the role 
of broadcasting can't be overstated. Losing this signal is 
simply unacceptable.
    And that's why I released a discussion draft bill last year 
called the ``Viewer Protection Act,'' and this bill makes sure 
everyone can stay connected no matter what. I appreciate that 
some broadcasters are looking at new ways to deliver their 
content, but my goal, once again, will be to view this from the 
eye of a consumer.
    So I wanted to ask Mr. Matheny, can you commit that if the 
FCC adopts this new technology, no viewer in the country, 
especially the most vulnerable who can't afford a new TV or new 
equipment, will lose their existing signal?
    Mr. Matheny. Thank you, Ranking Member Pallone. One of the 
key aspects of the rollout of Next Gen TV is the idea of 
simulcasting, and so broadcasters will continue to broadcast in 
the current standard as Next Generation TV also rolls out, and 
we believe that no one will be disenfranchised.
    Mr. Pallone. All right. And then let me ask. I mentioned 
earlier, oftentimes the best way to protect people is to make 
sure that they know how to get out of the way before a disaster 
strikes. In addition to receiving emergency alerts from 
broadcasting stations, another powerful way to inform people 
are through alerts on their cell phones through the wireless 
emergency alert system.
    So I wanted to ask Mr. Khatibi a few questions. I know that 
you have done a lot of work on the systems that deliver these 
wireless emergency alerts. How would the proposed new broadcast 
standard fit into that existing system?
    Mr. Khatibi. Thank you for that question. As we discussed 
earlier, I think the whole public safety is a patchwork of 
different elements. So wireless emergency alert is designed to 
provide the consumer immediate information about the alert that 
they are receiving, about the incident. Beyond that, if there 
is a need to get additional information through broadcasting TV 
and so forth, that can complement WEA.
    So from our perspective, wireless emergency alert is the 
first line of defense where we get the information in a timely 
fashion, and then additional information, you can get it 
through the URL provided or through broadcasting.
    Mr. Pallone. Now, will consumers have to buy new TVs or 
other equipment to receive these new broadcast station alerts?
    Mr. Khatibi. I would defer that to my colleague, Mr. 
Matheny.
    Mr. Matheny. So to get an advanced emergency alert of the 
nature that we showed earlier, yes, that would be delivered via 
the Next Generation system. And so either a new TV set or a new 
tuner device would be required to receive the advanced alert.
    Mr. Pallone. Now, what new advances are on the horizon for 
the wireless emergency alert system that will benefit 
consumers, and will these new features require consumers to buy 
new phones?
    Mr. Khatibi. So if I may, I will take that one. So as I 
mentioned, there are a number of activities that we are 
including, for example, going from 90 to 360 characters, 
including other languages, such as Spanish, providing 
additional alert type messages. And a number of those do not 
require new handsets, but some of them may require handsets as 
they come into the market. But we are trying to create as many 
services as possible within the existing handsets that we have. 
Thank you.
    Mr. Guttman-McCabe. And Ranking Member, if I may, AT&T 
mentioned in December that there are other capabilities in the 
device that they believe should and ultimately, I believe, will 
be connected to WEA that will drive some of the rich content 
and some of the benefits that Mr. Matheny is talking about that 
are just software upgrades. So they wouldn't require any 
additional equipment or change-out in devices.
    Mr. Pallone. All right. Thank you very much.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Lance, you are recognized for 5 minutes.
    Mr. Lance. Thank you, Madam Chair. And good morning to the 
distinguished panel.
    And, Dr. Khatibi, I want you to know I was honored to be at 
Qualcomm in Somerset County in the district I serve last week, 
and I understood some of what I was shown, but not everything. 
It was very advanced, and I must say, your colleagues there are 
wonderful innovators and great scientists, and you should be 
very proud, as I am sure your colleagues on the panel are proud 
of their distinguished employees.
    And to you, Dr. Khatibi, following up on Congressman 
Pallone's questioning, the hurricane in 2012 we call Sandy was 
devastating to our region of the country, as I am sure everyone 
in the room knows. Afterward, it became apparent, if it had not 
been apparent before the natural disaster, that there was great 
room for improvement.
    Do you think things would have been different, given 
technology advancements and upgrades made by carriers to WEA 
and to their networks since then? And I would be very 
interested in your views on this.
    Mr. Khatibi. Thank you for that question. That is actually 
a very interesting question. You know, for example, let's take 
a couple of examples, going from 90 to 360 characters. That 
provides the consumer more information in a timely fashion and 
potentially having different languages. So, part of our 
enhancement, part of our evolution is to understand what are 
the consumer requirements, what are the public safety views on 
what improvements should be made. And as we go to 5G, et 
cetera, we continue to see and understand from our alert 
originators what are the features that we like to see, and that 
is part of our path going forward to include all those 
features.
    So for the last few years, we have been very closely 
working with FEMA and DHS to understand what are the 
characteristics they would like to see included, and we have 
been enhancing our system continuously to allow those features 
to happen.
    So the answer to your question is, yes, I believe all this 
enhancements that we are doing right now will surely, will have 
benefitted Sandy and other disasters that we have had, and we 
are hoping that in the path that we have going forward, going 
to 5G, et cetera, we will continue improving and addressing the 
needs.
    Mr. Lance. And the sooner we get to 5G the better, I 
presume.
    Mr. Khatibi. Absolutely, yes. We are putting a lot of 
resources to make sure that 5G is deployed as soon as possible, 
and more importantly, that 5G has the capabilities for public 
safety that we require and we expect.
    Mr. Lance. Thank you very much. And for the panel in 
general, is there a risk to innovation and to consumers if the 
FCC forces wireless providers to use a particular targeting 
technology? And perhaps we will start on this side of the 
panel.
    Mr. Gutman-McCabe. Certainly. I am not in favor of them 
forcing anything.
    Mr. Lance. Nor am I.
    Mr. Gutman-McCabe. Yes. And I do believe that when you look 
at capabilities and you identify needs, the FCC's job is to 
frame those needs, whether it is public safety's needs or 
consumers' needs, and I think that should be the focus.
    Mr. Lance. Thank you. Others who would like to comment?
    Mr. Matheny.
    Mr. Matheny. I would just say that we are not in favor of 
mandates of that nature, and often, technology outpaces those 
types of things. And so we would like to be able to use the 
best available as we continue to innovate broadcasting.
    Mr. Lance. Thank you. I think it is the consensus of this 
subcommittee, it is certainly my belief that it is difficult 
for those in public policy to anticipate what is going to 
happen in technology. And the reason that we are as advanced as 
we are over the last 20 years is based upon technology that 
tends to run ahead of statutory law.
    Finally, how do we balance the costs and burdens of the new 
capabilities that you have described the fact that Congress 
made WEA a voluntary service?
    Yes. Yes, sir.
    Mr. Gutman-McCabe. Sir, I think the word you use, balance, 
is the correct word. I do, again, believe this should be a 
voluntary service. And to your point earlier about if the FCC 
or Congress gets too granular in their requirements, often they 
miss the mark.
    First example was we believe when we set the service that 
you could overalert and that would be fine, because wireless 
consumers are mobile. What we missed as an industry was that 
public safety wouldn't use it if you were overalerting because 
you would go outside of their constituency. So I do think there 
needs to be a balance.
    Mr. Lance. Thank you. I am over my time by 17 seconds.
    I yield back. Thank you, Madam Chair.
    Mrs. Blackburn. And we will try to make it up.
    Mr. McNerney, you are recognized for 5 minutes.
    Mr. McNerney. I thank the chairwoman.
    Mr. Matheny, I am impressed by the advancements of the ATSC 
3.0 standards. In fact, the examples that Mr. Gutman-McCabe 
gave about the geotargeting granularity was very impressive. 
But I am worried about affordability.
    In my district, over 21 percent of the households are 
living on an annual income of less than $25,000 a year. These 
individuals are not likely to be able to afford the new 
technology that is required, this means they won't have the 
same access to improved lifesaving information in emergency 
circumstances.
    Mr. Matheny, how can we ensure that adopting the new 
standard will not further marginalize those who can't afford 
these services?
    Mr. Matheny. Thank you, Congressman. The key tenet of the 
transition plan is the idea of a simulcast. And so broadcasters 
will continue to broadcast in the current generation of 
standard while also beginning to broadcast in the next 
generation standard. And so that type of approach will keep 
everyone able to receive free local broadcasting with the 
emergency alerts and having access to information.
    Mr. McNerney. Well, the new K4 TV, for example, is going to 
cost a couple thousands dollars, at least initially. I don't 
see how people can afford that. And it sounds like you are 
counting on that as part of your system, as a part of the 
safety system.
    Mr. Matheny. So I think what we are trying to do in our 
approach is to transition to a new technology that is going to 
have greater capabilities while also making sure that no one is 
left behind and everyone has access to our broadcasters.
    Mr. McNerney. It is good to know.
    Dr. Khartibi, how much do you anticipate the new standard 
chip will cost to manufacture?
    Mr. Khartibi. I am sorry, Congressman. I am not a 
technologist, so I don't have any cost numbers available to me. 
So I cannot answer that question. I don't have that number.
    Mr. McNerney. Well, would you anticipate the device 
potentially requiring other alterations in these devices and 
these other components are going to have to be altered as well?
    Mr. Khartibi. Absolutely. So providing these features of 
public safety it is part of our schedule of features that is 
coming up. So our chips are getting more and more sophisticated 
as we go along.
    So adding those new features even all the way to 5G is 
going to be very small incremental. It is not that you are 
designing a new chip just for support public safety. We are 
designing a system, and that system for public safety will make 
sure that it is part of that evolution.
    Mr. McNerney. OK. To change the subject a little bit, Mr. 
Khartibi.
    The emergency alert system has been hacked into in the 
past, and I understand that the new standard will enable 
information to be pushed into a much wider range of connected 
devices. I am concerned that this has the potential for 
increased cybersecurity risk. Does the new standard address 
potential cybersecurity concerns?
    Mr. Khartibi. Very good question, Congressman.
    So I was chairing at CSRIC V group on cybersecurity, and as 
part of that, we identified potential cybersecurity issues. And 
industry as a whole, we are making sure those cybersecurity 
issues are addressed. So we are working diligently to ensure 
that cybersecurity is addressed as we go forward.
    Mr. McNerney. Very good.
    Mr. Matheny, how are broadcasters planning to educate 
consumers about the new standard?
    Mr. Matheny. The first step that we need to do is to get 
FCC approval to use the new standard. And so Chairman Pai has 
established a target date of the end of the year to actually 
have that rulemaking out.
    We believe that once that is done, stations will begin to 
go on the air and they will begin to use their airwaves to talk 
about what they are doing and the benefits of NextGen TV.
    Mr. McNerney. It sounds like it is a voluntary program.
    Mr. Matheny. It is a voluntary program, yes.
    Mr. McNerney. Well, OK.
    Dr. Khartibi, in your written testimony you mentioned that 
the wireless industry is taking steps to improve geographical 
targeting. Can you explain how these improvements compare to 
the geographical targeting of the 3.0 standard?
    Mr. Khartibi. Actually, it is more on the wireless 
emergency alert that what we are trying to do is we started as 
a county level and now we are going to a smaller cell sector 
level. So we have already improving to a much more granular 
level at the existing deployment of wireless emergency alert.
    Mr. McNerney. It is pretty exciting. I just want to make 
sure it is affordable for my constituents.
    Mr. Khartibi. Thank you.
    Mr. McNerney. Thank you, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    OK. Now we have got Mr. Long, you are recognized.
    Mr. Long. Thank you, Madam Chairwoman.
    On May the 22nd of 2011, it was my oldest daughter's 
birthday. And we had a birthday party. Next Monday will be 
another birthday for her on May 22. And at that birthday party, 
alarms went off in Springfield, Missouri, and there was word 
that there was a tornado right at the edge of town. And the 
reason they thought there was a tornado at the edge of town, 
because there had been one 70 miles away, and we were getting 
debris from that tornado 70 miles away. In Springfield that hit 
Joplin, Missouri, on May 22nd of 2011. That was my 
indoctrination into being a Congressman.
    I had been here 5 months at the time and went down there as 
soon as it was daylight the next day, and stayed on the ground 
next day, missed a whole week of votes here in Washington. It 
was the single deadliest tornado in U.S. history since modern 
recordkeeping began in 1950. Over 160 people lost their lives. 
If I remember right there were 8,000 homes destroyed, 500 
businesses destroyed. And unfortunately, this is not an unheard 
of story in our part of the country, in tornado ally.
    I retweeted a report of a tornado in Oklahoma last night. 
After event assessments by FEMA determined that improvements 
were needed to better communicate the risks of impending storms 
to the public, Mr. Matheny, what kind of increased emergency 
alerting capabilities could ATSC 3.0 provide if a similar 
catastrophe, and let's hope it doesn't, strikes such as the 
Joplin tornado?
    Mr. Matheny. Thank you, Congressman Long. First, if I 
could, my son shares a birthday with your daughter.
    Mr. Long. Oh, very good.
    Mr. Matheny. And if I reflect back on my childhood, my 
father was a founding member of the rescue squad in a small 
town that I grew up in: Zebulon, North Carolina. And I remember 
vividly the loss of life suffered by a tornado that hit Zebulon 
when he was in that role.
    As it relates to what NextGen alerting can do, it really 
does come back to the demonstration that we showed earlier, the 
idea that we can wake up a device that is sleeping. We can 
provide more information. In the case of a tornado, it might be 
a map of exactly where the warning is taking place. We can 
target the alerts, very much like the technology that was being 
discussed from AC&C.
    We can use that same sort of technology so that we are not 
alerting an entire television market but we are alerting the 
people that are specifically impacted. And we can deliver them 
more actionable information that really let's them know what is 
happening and what they need to do.
    And then, finally, we can extend that beyond just the home 
television set to a variety of different devices from the 
automobile to computers to tablets, et cetera, anything that 
might have a NextGen TV tuner in it.
    Mr. Long. OK. Thank you.
    And, Dr. Khartibi, what wireless emergency alerts mean for 
my constituents, and can you discuss what changes have been 
made to the wireless emergency alerts since then to provide 
better information to alert recipients?
    Mr. Khartibi. And thank you, Congressman.
    I think the most important thing I want to mention is that 
this is the most ubiquitous device that we have. We all have a 
cell phone, at least one, sometimes two. And having the ability 
to receive imminent threat information on your cell phone is 
critical to the point that we want to make sure that that 
information is available to you in a timely fashion and that 
saves a lot of lives.
    But beyond that second part of your question, we are 
continuing to enhance more characters so that you can have a 
lot more information. It used to be that we only had 90 
characters, now we have 360 characters. We potentially are 
going to allow URL computers so you can surf, get more 
information, additional languages, getting a little bit better 
constraints.
    So we are enhancing as we get more demands, we understand 
the public safety requirements more. To improve the technology 
to make it more useful for the consumer.
    Mr. Long. All right. Thank you.
    And Madam Chair, I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Eshoo for 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman.
    First, I just want to make a couple of comments before I 
get to our witnesses with my questions. And I think that they 
are both topics that were raised by other members, but I would 
like to add my voice to it as well.
    And that is that for our subcommittee, this is a wonderful 
hearing in our subcommittee. Certainly, the future of emergency 
alerting is very important in our country for so many reasons.
    But this is the committee that has oversight responsibility 
of the FCC. The FCC has not been here since last July. That is 
a long time ago, and there is a lot happening at the FCC.
    Tomorrow, they will take up and begin the effort to unravel 
net neutrality. I believe that this subcommittee, and under 
your leadership, Madam Chairwoman, that we have a hearing, an 
oversight hearing, with the FCC.
    Both my colleagues, Congresswoman Matsui and our ranking 
member, Mr. Doyle, and myself have sent a letter to the 
chairman of the full committee and yourself to request that the 
subcommittee hold a hearing to examine the proposed acquisition 
of tribune media by Sinclair broadcasting. This is a $3.9 
billion deal that would create the single largest television 
broadcast company in the country. And I think that, again, this 
important subcommittee should be able to review and be able to 
ask questions.
    So I want to underscore the importance of having that 
hearing as well. So let me get to my questions.
    Thank you to the witnesses not only for your testimony but 
for the work that you have done in this field.
    In 2015, hackers were able to successfully disable a French 
broadcast television station. The new broadcast standard could 
enable hackers to do much more than simply take a station off 
the air including giving them a pathway into consumers' homes.
    So my question is, how prepared are all of the members of 
the industry, not just large station groups, to defend against 
potential cybersecurity threats that the next generation 
standard may bring?
    Mr. Matheny. Thank you, Congresswoman Eshoo.
    Broadcasters take very seriously the cybersecurity issues.
    Ms. Eshoo. Well, everyone does. And I have got a minute 50, 
so I want to get to all three and ask another question. So if 
you could just be brief. Thank you.
    Mr. Matheny. OK. So we have lots of educational programs 
that are taking place and operate hardened physical facilities 
already, and so we take it very seriously and are working hard 
to ensure that even with the NextGen standard, we maintain top 
cybersecurity.
    Mr. Khartibi. I would also agree on wireless emergency that 
cybersecurity is extremely important, and we have already 
started activities to ensure that it is a safe and secure 
process. Thank you.
    Mr. Gutman-McCabe. I would echo Dr. Khartibi on the 
wireless side, Congresswoman.
    Ms. Eshoo. I have heard some allege that the FCC's net 
neutrality protections could cause emergency alerts to get 
stuck behind some other traffic on the internet during an 
emergency. I would assume that the exception for a specialized 
service would make sure that that doesn't happen.
    So I would like to go to Mr. Gutman-McCabe. Have you ever 
heard of emergency alerts or any other types of emergency 
communications being hampered by the net neutrality 
protections?
    Mr. Gutman-McCabe. I have not. I mean, I have studied 
emergency alerts for a long time and net neutrality for a long 
time, and I haven't actually really focused on the intersection 
of the two, to be quite honest.
    Ms. Eshoo. But you know of none, is what you are saying?
    Mr. Gutman-McCabe. Correct.
    Ms. Eshoo. Broadcasters are going to have the ability to 
use devices such as GPS information to geotargeting emergency 
alerts. This raises important privacy questions that are new to 
the industry.
    What other types of information will broadcasters be 
capable of collecting from consumers, and what safeguards will 
broadcasters put into place to protect information that is 
collected by consumers?
    Mr. Matheny. So we believe that the idea of using location 
can really help with alert fatigue and serves a real value to 
providing meaningful----
    Ms. Eshoo. This is on the privacy side is what I am asking.
    Mr. Matheny. Yes. And so from a privacy perspective, 
broadcasters would have no greater access to information than 
they already have through their Web sites or other online 
offerings. And so there is already well documented security 
measures in place.
    Ms. Eshoo. Thank you.
    And I yield back.
    Mrs. Blackburn. The gentlelady yields back.
    Let's see. Mr. Collins, you are recognized for 5 minutes.
    Mr. Collins. Thank you, Madam Chair.
    I want to thank our witnesses. For the last couple of 
years, pirate radio has been top of mind when it comes to me. 
And we all know that our former chairman, Mr. Wheeler, showed 
no inclination whatsoever to deal with the issue.
    The good news is Ajit Pai does recognize the impact pirate 
radio can have. And I think today's radio really highlights a 
major issue on the emergency alert system and the potential 
interference. And so I maybe would want some comments from you 
as we move forward and try to get these pirate radio stations 
off the air.
    But we have certainly had reports. A lot of this is coming 
out of New York City, that in northern New Jersey, there was 
trouble with a station on the EIS because of pirate radio 
interference coming in the New York City area.
    And so, the other issue we have noted is that if somebody 
is listening to pirate radio, they don't broadcast EAS alerts. 
So somebody in that instance wouldn't get them to begin with. 
As we move forward, and I know Ajit Pai is going to move 
forward to try to shut these pirate radios down, kind of new 
sheriff in town in that regard.
    But if you could weigh in. And maybe I will start with Dr. 
Khartibi on industry's concern with something like pirate radio 
interfering with public safety in the EIS, EAS alerts.
    Mr. Khartibi. Thank you, Congressman. I think the important 
part of wireless emergency alert is that it is a very secure 
system that is originated from authorities to wireless devices 
that are functioning on spectrum that are assigned to wireless 
carriers.
    So from that perspective we can decouple somewhat from 
pirate radio, because all the information is sent through a 
channel that is licensed by FCC to their carriers.
    And the information is coming from an authority that we 
understand as its originator. So from that perspective, the 
good news is at that wirelessly, what we are immune from 
potentially pirate radios. Thank you.
    Mr. Collins. Now, they are not using license spectrum, they 
are stealing spectrum.
    Mr. Khartibi. Yes. But they are operating as a different 
spectrum than your devices function. Obviously, they can jam 
and so forth, which they can provide but the spectrum they are 
using for FM, AM and so forth, they are not the same spectrum 
we are using for wireless devices.
    Mr. Collins. Yes.
    Mr. Gutman-McCabe, do you have any comments?
    Mr. Gutman-McCabe. Congressman, just at the macro level, I 
think collectively, we as a society have to work to ensure that 
there is not misinformation when it comes to the delivery of 
emergency alerts.
    I know on the FEMA side they work hard with wireless 
carriers to confirm that those originating alerts are actually 
qualified and authorized to do so.
    So I think the pirate radio example would fall into a 
category of potential misinformation alerts and, we have got to 
be aware and try to reduce or eliminate them.
    Mr. Collins. Yes.
    Mr. Matheny?
    Mr. Matheny. So as we are very concerned about pirate 
radio, and we think that the examples that you cited are ones 
that are of vital concern, especially when you consider the 
daisy chain effect of the EAS system and the idea that a pirate 
radio station might be operating on a frequency that not only 
interferes with a station but it could be an originating 
station that then prevents downstream stations from receiving 
that alert.
    So we absolutely share that concern. I think I would add to 
that that more and more cell phones have FM chips activated in 
them. And so the idea that you are able to listen to FM radio 
on your cell phone and millions upon millions of people are 
doing that today already, that is it becomes a concern for that 
type of information getting to cell phones as well.
    Mr. Collins. Yes. I want to thank all the witnesses.
    And I yield back.
    Mr. Johnson [presiding]. I thank the gentleman for yielding 
back.
    I now yield 5 minutes to our distinguished colleague from 
California, Mrs. Walters.
    Mrs. Walters. Thank you, Mr. Chairman.
    I would like to thank the subcommittee for holding this 
hearing and the witnesses for sharing their insights.
    Over the years, my district in California has experienced a 
number of weather-related disasters, including flooding, 
earthquakes, and wildfires. As recently as last month, an AMBER 
Alert for a missing 1-year-old girl was issued throughout the 
region including Orange County. In each instance the 
distribution and accuracy of emergency alerts are critical to 
ensuring the safety of all individuals. As technology evolves, 
so will the way we communicate emergency information.
    As a new member of the committee, I look forward to 
learning more about your issues and how we can work together to 
build upon the existing emergency alert system.
    It is safe to say that Californians are pretty much waiting 
for the next big earthquake to hit. Particularly in my 
district, which sits near a major fault line. Schools hold 
earthquake drills, companies host earthquake safety sessions, 
and my office has hosted earthquake preparedness seminars for 
my constituents.
    Along those lines, I understand, Dr. Khartibi, that you are 
doing some work on earthquake detection. Can you tell me a 
little bit about what you are working on as it relates to the 
earthquake early warning system?
    Mr. Khartibi. Thank you, Congresswoman. Thank you for 
asking that question, because I live in San Diego, and very 
close to the water, so I want to make sure that we have a 
system in California to detect and warn people on earthquakes.
    So we are working very closely with California OES 
operation system as well as USGS and earthquake authorities to 
design a system that we can alert a consumer on earthquake, 
astronauts detected and we go through a lot of details. There 
is a way we can detect the earthquake before you can actually 
get the shaking so we can give advanced warning to the folks 
who are in the imminent danger to take action before the actual 
shaking gets to them.
    So as I said, this is very near and dear to my heart and we 
are working very closely, the industry as a whole, to implement 
a system to detect and alert consumers very similar to real but 
a lot more efficient and a lot faster on earthquake systems.
    Mrs. Walters. OK. Thank you.
    Mr. Matheny, can you talk a little bit about how NextGen 
broadcast alerts can provide more information to recipients?
    Mr. Matheny. Yes. Thank you, Congresswoman.
    So we think that with the demonstration that we showed 
earlier and the idea that we can not just present scrolling 
text or basic information, we are able to really provide 
actionable information and that could come in the form of maps. 
It could come in the form of evacuation routes. It could come 
in the form of video on demand, even.
    So if you are talking about a complex issue, the ability to 
have that video downloaded in the background and to play for 
the user and combine that with the targeting of information 
such that if you are in one part of the broadcast area and I am 
in another, we may get different advice based on our exact 
situation. So there are a lot of capabilities that NextGen 
alerting will offer.
    And in particular, I put that in the context of, again, 
being able to wake up a device, so to get someone's attention, 
whether or not their device is turned on or not.
    Mrs. Walters. Thank you.
    And I yield back the balance of my time.
    Mr. Johnson. I thank the gentlelady for yielding back.
    I now recognize Mr. Costello for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Matheny, you focus today on the advanced alerting 
capabilities of NextGen TV broadcast and the standard for it. 
If I understand correctly, broadcasters have to first ask the 
FCC for permission to innovate on their standard and achieve 
any of these benefits. Where is that issue at the FCC, and who 
else is supporting the Next Generation TV standard?
    And then, finally, can you clarify whether broadcasters are 
asking for any additional spectrum, funds, mandates, or relief 
from any mandates?
    Mr. Matheny. Thank you, Congressman.
    We, along with the Consumer Technology Association, the 
association for public television stations, as well as the 
AWARN alliance filed a petition. There is a notice of proposed 
rulemaking out now.
    Chairman Pai has targeted the end of the year for having 
rules to enable broadcasters to begin to use the next 
generation standard. So we are hopeful that that timeline can 
hold and going into next year we will be able to have stations 
doing deployment.
    As it relates to further asks, our ask is one that is 
voluntary and does not require any mandates or additional 
spectrum or new funds. So we are taking a voluntary approach to 
this and, again, hope that deployment can begin next year.
    Mr. Costello. Mr. Khartibi, in your testimony you touched 
on the recommendations from the CSRIC working group on the WEA 
security in terms of end-to-end security.
    Can you further describe current vulnerabilities and 
recommendations to mitigate them, the risk of malicious code 
within the supply chain ancillary questions? What about outside 
actors originating false WEA alerts or blocking real WEA 
alerts. And would developing more precise jurisdictional alerts 
help contain those cybersecurity concerns, or might they, by 
contrast, make it even a worse situation or accelerate it from 
spreading to neighboring jurisdictions.
    Mr. Khartibi. Thank you, Congressman. It is a very good 
question.
    So during the CSRIC V discussion that we had on 
cybersecurity, we looked at potential security issues end to 
end, from alert originators all the way to the carriers all the 
way to the users, and you provided a couple of excellent 
examples of where security issues could come up.
    What we are doing at the industry, we are working very 
closely with FEMA and DHS to address those security issues and 
make sure that we have a very secure end-to-end system.
    And as you mentioned, one of the points that we are trying 
to make sure we address is that the alert originators are 
authorized alert originators. Because we have seen through 
social media and so forth, people can take advantage of sending 
some false alerts to actually cause more damage.
    Mr. Costello. Right.
    Mr. Khartibi. So we are addressing that to make sure that 
alert originators for real is a secured alert originators.
    Mr. Costello. Right, we will have to follow up on that in 
terms of--I am sorry. Go ahead, please.
    Mr. Gutman-McCabe. I was just going to say, Congressman, 
the latter part of your question involved the geotargeting more 
granular alerts. And as I said earlier, we are finding that 
public safety is not using the capability because they can't 
constrain or confine the alert to their jurisdiction.
    Mr. Costello. Right.
    Mr. Gutman-McCabe. And we have had many, many cities, and 
we have had Seattle said they have 18 microclimates, so they 
can't send alerts, so they don't use it. Harris County, Texas, 
has said, we haven't used it, because even though we have had 
five presidential declarations of emergency, because we can't 
confine it.
    So I do think you have to look at that issue with a balance 
and say the greater the granularity the more likely it actually 
gets used. That may open the door for some bad actors, but 
FEMA, I think, has a very robust process for making sure that 
doesn't occur.
    Mr. Costello. Thank you, gentlemen.
    Mr. Johnson. I thank the gentleman for yielding back.
    I am going to yield my time for a few questions.
    Dr. Khartibi, one of the things you mentioned in your 
testimony is enhancing end-to-end security. Could you describe 
that work and what it is aimed to address?
    Mr. Khartibi. Yes. Thank you for the question.
    So part of the CSRIC V work that we did, we looked at all 
the end-to-end security, potential security issues that could 
be introduced. We haven't seen any of those, but we went on and 
said, OK. What if? And how can we mitigate those security 
issues?
    So we created a report that said, what are the potential 
issues and how can it be mitigated, and industry now, taking a 
lead to make sure those security issues would not happen.
    So we are doing the best we can. And cybersecurity, you can 
never be 100 percent, but we are doing all we can to make sure 
that wireless emergency alert is from a very secured authority 
and gets to the consumer in a secure way. We have a huge report 
on that. And, as I said, the industries continue to work on 
that. Thank you.
    Mr. Johnson. Thank you. I also notice that in your 
testimony that the FCC's CSRIC working group did reports on 
social media and complementary alerting methods. Could you 
discuss concerns regarding trustworthiness and security with 
regard to social media as an alerting tool?
    Mr. Khartibi. Yes. I think you pointed exactly the issue 
with social media.
    So social media can be helpful and at the same time it can 
be misused. So we had a very interesting discussion during 
CSRIC V on how potentially even the public safety can take 
advantage of information that is going on. For example, in the 
San Bernardino shooting, there was a lot of information going 
on on social media that the public safety could use.
    At the same time, bad people can take advantage of the 
social media and spread bad information and cause even more 
damage. So we need to understand how to help take advantage of 
social media but not to the point that actually social media is 
not authority like wireless emergency alert, so that is the 
balance that we are trying to find.
    Mr. Johnson. OK, thank you.
    Mr. Gutman-McCabe, anything to add to that?
    Mr. Gutman-McCabe. Yes, Congressman. I heard a great quote 
with regard to the intersection of social media and emergency 
alerting, and Dr. Khartibi, I think, really hit at it. But the 
quote is, ``With the use of social media when it comes to 
emergency situation, there is a potential for viral 
misinformation.'' And I think that is a threshold concern that 
I and others who have worked on this issue have.
    Dr. Khartibi, I think, hit on it well, and he said it can 
provide an additional alternative or an add-on benefit. But the 
primary has to be, I believe, the EAS system that Mr. Matheny 
and NAB's members provide as well as the wireless emergency 
alert that many of us have worked on. I think that has to be 
the primary, because it is authorized, it is confirmed.
    FEMA ensures that the person who originates the alert is 
actually allowed to--and I think that is a process that ensures 
that we get correct information, not viral misinformation.
    Mr. Johnson. Sure.
    Mr. Matheny?
    Mr. Matheny. So I would say that trust is the key issue, 
and that is something that, as the study that was released this 
morning shows that broadcasters remain the most trusted source 
for information by a 4X margin. So I think turning to 
broadcasters to provide that trusted information about what is 
taking place is key, and broadcasters are providing that not 
just over the air with the free over-the-air signals but also 
on numerous platforms including social media.
    Mr. Johnson. OK. All right. Thank you.
    Mr. Khartibi, continuing with you, then, advancements in 
wireless emergency alerting sound promising, but we have also 
heard today the limitations of wireless communication, like 
network congestion in times of emergency.
    How is wireless industry working to overcome these 
limitations?
    Mr. Khartibi. Thank you, Mr. Chairman.
    So what we are doing right now is as we are evolving to 5G, 
we are trying to find out what other potential issues we can 
improve the system to make sure that 5G does not inherit all 
the issues that we had in 4G.
    So we are continuously thinking about what are the paths we 
can get so that wireless emergency alert which can save people 
and potentially disaster areas. That has no issues with 
congestion.
    Mr. Gutman-McCabe. Yes. And I would just add, Congressman, 
the alert itself goes over a different element of the wireless 
network, not the same network that you and I would use either 
for broadband access or for texting or for voice.
    It is a cell broadcast, so it is a different component of 
the network that doesn't have the issues of congestion. Those 
issues may happen after an event, but not with regard to the 
WEA service.
    Mr. Johnson. OK. And I thank you.
    My time has expired. I now yield 5 minutes to Mr. Guthrie 
from Kentucky.
    Mr. Guthrie. Thank you very much. I appreciate it, Mr. 
Chairman, for yielding. I appreciate everybody being here.
    There was a healthcare subcommittee for the same committee 
going on, so I have been back and forth. So I think you just 
started talking about this.
    But, Dr. Khartibi, can you walk us through how a WEA alert 
is broadcast by a service provider?
    Mr. Khartibi. Yes, I would be happy to do so.
    So as my colleague, Mr. Gutman-McCabe mentioned, we have a 
separate channel that we can broadcast the information. And the 
best part about it is that when it is broadcast to a particular 
cell site, all the devices, regardless of where their home 
location is, would get that.
    So, for example, I just arrived from San Diego last night. 
If there is a chemical spill here, all our devices would get 
that alert including mine. So there is no subscription needed. 
It just broadcasts to the specific cell sites that would have 
that information and all the devices would receive it.
    Mr. Guthrie. OK. And to Dr. Khartibi again, or Mr. Gutman-
McCabe, one of the arguments for ATSC 3.0 is that if the 
technology incorporated into mobile devices they could be 
awakened in times of emergency. And I think one earlier might 
have mentioned this too when I was in earlier, so that alerts 
can be delivered.
    Do you see this as currently feasible, or is there any risk 
that this capability could drain battery power during a time 
when a commercial power outage is already compromising 
strength?
    Mr. Gutman-McCabe. Congressman, it is certainly something 
that we talked about when we put the committee together is 
awakening the device, and I think we called it a zombie device. 
The reality is the overwhelming majority of Americans for 
better or for worse don't turn off their devices. And so we did 
study it at the time, somewhat robustly as we also studied 
incorporating a broadcast chip and satellite chip and FM chip, 
and we looked at those different capabilities and settled on 
the cell broadcast service as the right capability to deliver 
alerts on the mobile wireless platform.
    Mr. Guthrie. OK. And my final question for you, again, Mr. 
Gutman-McCabe, anybody can answer this, is what kind of impact 
were the advances that you discussed to have on the consumer 
devices? Do you anticipate it would increase the size or cost 
of a handset?
    Mr. Gutman-McCabe. Congressman, no. What we are looking at 
is simply a software upgrade. AT&T said in December that it 
could use existing APIs and capabilities in the device. So what 
we are trying to do is integrate software that would allow the 
intelligence in the handset to become part of WEA.
    And to address, actually, a number of the significant 
upgrades that Mr. Matheny has discussed, including the ability 
to geotarget, including the ability to deliver rich content, 
including the ability to personalize the alert.
    So all of these things are available in--and are part of 
the capabilities of the device, to be quite honest. Linking 
that to WEA is what is under consideration at the FM PRM at the 
FCC, and we think that is the next iteration, the next stage.
    Mr. Guthrie. OK. Thank you very much. I appreciate your 
answers, and I yield back the balance of my time.
    Mr. Johnson. I thank the gentleman for yielding back.
    Now yield to Mr. Olson from Texas for 5 minutes.
    Mr. Olson. I thank the chairman.
    Welcome to our witnesses. Mr. Gutman-McCabe, you and I are 
right there. You mentioned Harris County. Harris County is 
about 20 percent of my district; Texas, 22.
    Is on track. It is exploding with growth. We think we will 
have 1 million people by 2020, that is 250,000 over a normal 
congressional district. It is the most ethically diverse 
district in America. It is very geographically diverse. We have 
20-story buildings, suburbs, cotton farms. Our big emergencies 
are typically weather.
    We have a saying in Texas: If you don't like the weather, 
just wait 15 minutes; it will change. And that change will be a 
hurricane, a tornado, a drought, a flood, hail, earthquakes.
    But our office of emergency management back there have told 
me and the FCC that geotargeting alerts is the most important 
thing to the future of wireless emergency alerts since 
geotargeting can summon a car or order pizza like my son does 
through my phone or my other phone, and that could arrive at my 
door.
    It seems like my public safety people back home in Harris 
County should be able to use location capabilities and our 
devices to target alerts mostly in smaller areas. And since 
these capabilities are already in most devices like both of 
these, will that be allowed, will that be in order, will that 
capability be in order with our wireless communication alert 
service? What are the challenges going forward? What is going 
to happen? What are the challenges?
    And feel free to talk. It is not just for Mr. Gutman-
McCabe.
    Mr. Gutman-McCabe. So first of all, your Francisco Sanchez 
is your person that works on this issue in Harris County. And 
he is fantastic. He has actually worked with Dr. Khartibi on 
the CSRIC working group, and he is a great public servant.
    I have said throughout the hearing, I think getting that 
ability to geotarget will unleash a world of benefits to this 
service. And I do believe the capabilities are there, and I do 
know that Dr. Khartibi and the wireless industry are working on 
it, the issue is going to be, obviously, timing.
    It was a big deal when AT&T stepped out and said these 
capabilities exist in the device, that they are there, and that 
the industry can take advantage of those capabilities to 
manufacture this upgrade and this capability.
    Obviously, the issue is going to be when, but I know the 
industry is working on it.
    Mr. Olson. Dr. Khartibi, you have been drawn in this 
conversation. You care to add something to it?
    Mr. Khartibi. First, I would like to also echo the fact 
that I had the pleasure to work with Mr. Sanchez as part of 
CSRIC V. We were the coleads on it, and it was a real pleasure 
working with him.
    And I would like to also--and as Mr. Gutman-McCabe 
mentioned that industry is working on providing better location 
services. We went from a county level to cell site level and we 
have thoughts about, for example, device base on how to 
potentially improve it even further. So this is definitely 
industry is taking a lead on it, and we are working very 
closely with FEMA and DHS to improve that. Thank you.
    Mr. Olson. Thank you. You want anything there, Mr. Matheny, 
or are you fine?
    Mr. Matheny. No. I would just say that the same benefits of 
geolocation apply to next generation television, and the idea 
that we can provide target alerts that would help with alert 
fatigue but also would provide more actionable information to 
the affected individuals.
    Mr. Olson. Thank you, gentlemen.
    One message from Mr. Sanchez, he wants to remind all of you 
that the Houston Astros has the best record in pro baseball 
today.
    I yield back.
    Mr. Johnson. I thank the gentleman for yielding back.
    Mr. Bilirakis from Florida, recognized now for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    As a district on the Gulf Coast, a significant portion of 
my constituents live on or near the water, they live near the 
water or on the water, and fortunately, they experience major 
flooding. Currently, evacuation routes are limited to only a 
few east/west roads and bridges. Unfortunately, about a 40 
mile-per-hour wind. The bridges close to the public, which 
further restricts emergency routes. So it is a big, big problem 
in our area.
    Due to this, I am very interested in the 2016 FCC's 
examination of new event codes for storm surge warnings and 
extreme wind warnings.
    Dr. Khartibi, what progress has industry made to support 
these codes?
    Mr. Khartibi. Thank you, Congressman, for that question.
    We have done a lot of progress on that. As a matter of 
fact, right now, we are almost completing the standard. When I 
say standards, Mr. Gutman-McCabe work for, we have done 
prescription so that all manufacturers start implementing it. 
So we have completed the standards, and that means that now we 
can make sure that all devices and all handsets would have that 
capability shortly and the networks as well.
    So we are very much on our way to including those event 
codes in our devices and in our network.
    Mr. Bilirakis. Thank you very much.
    In addition to flooding, just last week my district 
experienced wildfires. Throughout the ordeal, Pasco County 
government shared information on social media about road 
closures, smoke conditions, and also livestreamed a press 
conference online, our firefighters did an outstanding job as 
they always do, to put out these fires. So saved many lives. We 
were so grateful to them.
    Again, Dr. Khartibi, could you describe the integration or 
coordination of wireless emergency alert system messages and 
the ever-changing information on the ground being shared by the 
local governments on, again, the online community?
    Mr. Khartibi. Yes, sir. That is an excellent question.
    It is designed so that we can potentially have input from 
both local, state, and Federal input. And we receive some 
statistic that there has been 850 alert originators so far and 
over 30,000 alerts sent. So we allow, definitely, local 
authorities definitely have access to provide timely 
information to consumers in scenarios we described.
    Mr. Bilirakis. OK.
    One last question. Due to my area's limited evacuation 
routes, and we are working on fixing that, but I am intrigued 
by the development of more accurate geotargeting of emergency 
areas. By mitigating alert spillover outside the target zone, 
we can prevent unnecessary road congestion. So the question is 
for Mr. Gutman-McCabe.
    You discussed the ability to geofence any shaped emergency 
zone and better target populations. Is it feasible in the near 
future to send two separate messages to two distinct groups 
within a specific tower coverage area? Again, how granular can 
we go?
    Mr. Gutman-McCabe. Certainly, Congressman.
    So the answer is yes, it will be, this ability to geotarget 
and get more granular is put into the device. Think of it as 
two people on the same street can order Uber and get two 
different Ubers to the same area, or I can order an Uber in my 
house and walk across the street and order a second one and get 
both of them. It is the only limitation is the ability of the 
device to identify its location, and the devices are getting 
more and more accurate.
    So the public safety, and the FCC is proceeding, has 
identified exactly that type of scenario that you have just 
highlighted, which is we want the west side of this street to 
move west, and we want the east side of this street to move 
east, and that is the way we avoid congestion.
    And so evacuation routes or, you know, splitting an order, 
shelter in place to this block, evacuate, you know, to the next 
block. And you can imagine that type of situation applying 
itself in all sorts of emergency scenarios; shootings, things 
like that.
    That horrific shooting in Orlando is a perfect example. 
Public safety would like to target an alert right to that 
specific nightclub and say to that nightclub, you know, there 
is a shooter in the building. We are coming in, you know, duck. 
And then outside that building, it would be, do not go near the 
building. And so in that situation, you would have a donut hole 
in a donut sort of message. That capability is on the horizon.
    I know the industry is working on it, and we believe, but 
more importantly, public safety believes it will be 
informational.
    Mr. Bilirakis. Very good. Exciting stuff. Thank you.
    I yield back, Mr. Chairman.
    Mr. Johnson. Thank you. The time has expired. And now 
seeing there are no further members wishing to ask questions 
for the panel, I thank all of our witnesses for being here 
today.
    Pursuant to committee rules, I remind members that they 
have 10 business days to submit additional questions for the 
record. And I ask that witnesses submit their responses within 
10 business days upon receipt of these questions.
    Seeing no further business before the subcommittee today, 
without objection, the subcommittee is adjourned.
    [Whereupon, at 11:51 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

                                 [all]
                                 
                                 
</pre></body></html>
